 04/12/07        THU 09:55 FAX 865 241 3897              OIG                          4-,.
                                                                                         HQ                    ~001


SDOEF 1325.8
  (08-93)
  United States Government                                                            Department of Energy


  memorandum
         DATE:      April 11, 2007                                   Audit Report Number: OAS-L-07-10

     REPLY TO
     ATTN OF:       IG-32 (A06DN005)

     SUBJECT:       Audit of the Department of Energy's Community and Regulatory Support Funding at the
                    Carlsbad Field Office
           TO:      Manager, Carlsbad Field Office

                    INTRODUCTION AND OBJECTIVE

                    The Department of Energy's (Department) Office of Environmental Management
                    provided $60.1 million in Community and Regulatory Support funding in Fiscal Year
                    (FY) 2005 to a number of Department sites. The funding is intended to be used for
                    activities indirectly related to nuclear and hazardous waste cleanup, such as agreements
                    with state regulatory agencies and transportation departments. During FY 2005, the
                    Department's Carlsbad Field Office (Carlsbad) received $23.4 million in funding.
                    Carlsbad provided the funding to the New Mexico Department of Transportation
                    (NMDOT) for the purpose of economic assistance, including road improvements in
                    connection with the Department's Waste Isolation Pilot Plant (WIPP). WIPP is scheduled
                    to receive waste through 2030. The funding is authorized by Congressional legislation,
                    effective FY 1997, requiring annual payments in the amount of $20 million plus an
                    inflation adjustment through 2011.

                    The objective of this audit was to determine if the Department is ensuring that
                    Community and Regulatory Support funds are spent for the intended purpose and in the
                    most effective manner.

                    CONCLUSIONS AND OBSERVATIONS

                    While we found that Community and Regulatory Support funds were being spent for
                    their intended purposes, we noted that the Department could improve its communication
                    with NMDOT to facilitate the state's road maintenance efforts along WIPP shipping
                    routes. In reviewing the use of Community and Regulatory Support funds at Carlsbad,
                    we found that the funds had been and were planning to be used for road improvements in
                    connection with WIPP. However, Carlsbad had not provided the cognizant NMDOT
                    transportation planning officials with sufficient information needed to most effectively
                    plan projects to maintain roads important to the shipment of waste to WIPP. For
                    example, Carlsbad had not made NMDOT aware of specific Departmental route plans to
                    ship waste, including the percent and schedule of travel along specific roads. Lacking
                    such information, NMDOT was unaware that three road maintenance projects it selected
                    to use $18.5 million in Departmental funds were, according to Carlsbad officials, on
                    routes scheduled to receive less than one percent of waste going to WIPP.
04/12/07   THU 09:55 FAX 865 241 3897                 01G                          -- 4   HQ                 0002



             While Carlsbad was providing some transportation information to certain State of New
             Mexico and NMDOT officials, the information was not being provided to NMDOT
             transportation planning officials responsible for making critical decisions on how the
             funds were to be used. In addition, an NMDOT official who did receive the information
             told us that it was not useful because it was difficult to interpret, changed too frequently,
             did not provide enough specific information, and was only provided sporadically until
             recently. Further, NMDOT transportation planning officials stated that more detailed
             information on the Department's estimated use of WIPP routes would be beneficial when
             considering the timing and amount of funds to apply to WIPP road maintenance projects.
             This is particularly important since Carlsbad officials indicated that the expected use of
             these routes could change based on future Department decisions on how to dispose of the
             remaining waste destined for WIPP.

             To enhance communication, we suggested that your office provide and discuss with
             cognizant officials in NMDOT plans regarding the Department's WIPP route schedules
             and shipments. The Office of Environmental Management and your office agreed with
             the suggestion and indicated they would improve efforts to exchange information with
             the State of New Mexico.

             SCOPE AND METHODOLOGY

             The audit was performed between April 2006 and February 2007 at the Department's
             Carlsbad Field Office in Carlsbad, New Mexico and the offices of the NMDOT in Santa
             Fe, New Mexico. The scope of the audit focused primarily on expenditures in Fiscal
             Year 2005.

             To accomplish the audit objective, we obtained and reviewed Department laws,
             regulations, policies, and procedures relevant to the funding of community and regulatory
             support activities; reviewed the legislation and funding agreement pertaining to
             Department funding to NMDOT; reviewed NMDOT budget, cost, and work scope
             information to determine if controls were in place to ensure that funds were spent
             effectively and for the intended purpose; reviewed the results of prior audits and reviews;
             and, held discussions with officials from Carlsbad, Environmental Management, and
             NMDOT.

             The audit was performed in accordance with generally accepted Government auditing
             standards for performance audits and included tests of internal controls and compliance
             with laws and regulations to the extent necessary to satisfy the audit objective.
             Accordingly, we assessed the Department's controls over community and regulatory
             support funding to NMDOT. Because our review was limited, it would not necessarily
             have disclosed all internal control deficiencies that may have existed at the time of our
             audit. Also, we considered the establishment of performance measures in accordance
             with the Government Performanceand Results Act.of 1993 as they related to the audit
             objective. We found that the Department had not established specific performance
             measures for expenditures of community and regulatory support funds. We relied only to
             a limited extent on computer-processed data from funding recipients to accomplish our
             audit objective. Accordingly, we did not test the reliability of the data.



                                                  2
04/12/07   THU 09:56 FAX 865 241 3897              OIG                          --*-   HQ               Q4003



             We discussed the audit results and suggested actions with Carlsbad officials in February
             2007. Because no formal recommendations are being made in this report, a formal
             response is not required. We appreciate the cooperation of your staff during our review.



                                                   redrick G. Pieper, Director
                                                  Energy, Science and Environmental
                                                    Audits Division
                                                  Office of Inspector General

             cc:    Chief of Staff
                    Assistant Secretary for Environmental Management
                    Team Leader, Audit Liaison Team, CF-1.2
                    Audit Liaison, Office of Environmental Management, EM-43
                    Audit Liaison, Carlsbad Field Office




                                                  3
